HHS/OIG, Audit -"Title XIX Federal Financial Participation Claimed for Rehabilitative Treatment Services Family
Foster Care,"(A-07-02-03025)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Title XIX Federal Financial Participation Claimed for Rehabilitative Treatment Services Family Foster Care," (A-07-02-03025)
May 25, 2004
Complete
Text of Report is available in PDF format (1.09 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the amounts claimed by the State of Iowa for the Rehabilitative
Treatment Services, Family Foster Care Program met Title XIX reimbursement requirements for Federal financial participation
(FFP) for Federal fiscal year (FFY) 2001.  We found errors in 30 of the 100 sample claims reviewed and 14 of those
contained multiple errors.  The errors identified were not in compliance with applicable criteria including the Iowa
State Plan and the Iowa Administrative Code. The errors occurred because the State lacked adequate internals controls to
ensure proper delivery of services for Medicaid reimbursement.  As a result, FFP totaling $386,092 of the $2,115,589
claimed by the State for FFY 2001 did not meet the required criteria for Medicaid reimbursement, and therefore, was unallowable.  We
recommended that the State refund to the Federal Government $386,092 of the Medicaid FFP claimed for the Family Foster
Care Program for FFY 2001.  We also recommended that the State strengthen policies and procedures to ensure that Medicaid
payments are based on services directed exclusively to the rehabilitative treatment needs of the child as defined in the
State plan and are provided in compliance with State and Federal regulations.